Supreme Court, U.S.
FILED

JUN 0 8 2D21
OFFICE OF THE CLERK

No.

JjD-nib

In the Supreme Court of the United States

I

t

Melvin Walker,
Petitioner,

i

v.

Governor of Pennsylvania, et al,
Respondent.
Petition for Writ of Certiorari to The United States
Court of Appeals for the Third Circuit Docket: 202783
PETITION FOR A WRIT OF CERTIORARI

Melvin Walker
2024 Chestnut St.
Harrisburg, PA 17104
(717) 557-3064

RECEIVED
JUN 1 0 2021

1

QUESTIONS PRESENTED

•*

Constitutional Question is the Governors Code of Conduct
constitutional? 16AM Juris. 2nd Ed.Const. Law. Sect. 177
Declaratory Judgement Act
Commonwealth of Pennsylvania Governor's Office Code of
Conduct, Executive Order 1980-18.
Is The Governor of Pennsylvania, and the Secratary of
Transportation, defined as employees? Under Title VII Civil
Rights Act of 1964.
WALKER v. WOLF et al, CASE #: 2:i9-cv-04983-PBT
THE TITLE VII AND ADEA CLAIMS AGAINST
DEFENDANTS ARE DISMISSED WITH PREJUDICE
liability cannot exist pursuant to Title VII. Sheridan v. El
DuPont de Nemours & Co., 100 F.3d 1061, 1078 (3d
Cir.1996) (en banc)."Congress did not intend to hold
individual employees liable under Title VII." Id. at 1078.
4. As provided in 42 U.S.C. § 1981a(b)(l), "[a] complaining
party may recover punitive damages ... if the complaining
party demonstrates that the respondent engaged in a
discriminatory practice or discriminatory practices with
malice or with reckless indifference to the federally protected
rights of an aggrieved individual."
Be it enacted by the Senate and House of Representatives of
the United States of America in Congress assembled, That
this Act may be cited as the "Civil Rights Act of 1964".
Definitions subsection 2000(e) (£> the term "employee" shall
not include any person elected to public office in any state...

11

The question presented is, can the District Court construe
case law from the (3d Cir.1996) (en banc) to now include
elected officials as employees. As the ground to DISMISS the
plaintiffs VII and ADEA claims WITH PREJUDICE,
MOTION TO DISMISS FOR FAILURE TO STATE A
CLAIM, GRANTED. Siting congress intentions, and case
law, out of context? The District Court ruling is an abuse of
discretion. Title VII claims should not be dismissed as a
matter of law. Also my Appeal has no jurisdiction if the
constitutional question asked has never been answered. And
dismissed without prejudice. As directed, it’s not a final
order. Melvin Walker v. Governor of Pennsylvania, et al.
Third Circuit Court of Appeals Docket #: 20-2783 - While
some claims were dismissed with prejudice, others were
dismissed without prejudice, GENERALLY, AN ORDER
WHICH DISMISSES A COMPLAINT WITHOUT
PREJUDICE IS NEITHER FINAL NOR APPEALABLE.
BORELLI V. CITY OF READING, 532 F.2D 950, 951 (3D
CIR. 1976) (PER CURIAM).

Ill

PARTIES TO THE PROCEEDING
All parties do not appear in the caption of the case on the
cover page. A list of all parties to the proceeding in the
court whose judgement is the subject of this petition is as
follows*

Governor of Pennsylvania, Thomas Westerman Wolf and
former Pennsylvania Secretary of Transportation Leslie
Richards

RELATED CASES
Case Number: 20'2783 Melvin Walker v. Governor of
Pennsylvania, et al UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT Judgement Entered
03/10/21 Chief Judge, MCKEE, AMBRO, CHAGARES,
JORDAN, HARDIMAN, GREENAWAY JR., SHWARTZ,
KRAUSE, RESTREPO, BIBAS, PORTER, MATEY and
PHIPPS, Circuit Judges)
WALKER v. WOLF et al, 2:i9-cv-04983-PBT United
States District Court Eastern District of Pennsylvania
(Philadelphia) Judgement Entered 01/21/2021 Judge
Patrice Tucker

2:i7-cv-04720-PBT WALKER v. PENNSYLVANIA
DEPARTMENT OF TRANSPORTATION United States
District Court Eastern District of Pennsylvania
(Philadelphia) Judgement Entered 06/03/21 Judge Tucker
Case Number- 19*2435 Melvin Walker v. Pennsylvania
Department of Transportation UNITED STATES COURT
OF APPEALS FOR THE THIRD CIRCUIT Judgement
Entered 06/10/2020 Judge Ambro, GreenawayJr, Porter

IV

TABLE OF CONTENTS
OPINIONSBELOW.... ........................................................ 1
JURISDICTION................................................................ 2
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED...................................................................
3
STATEMENT OF THE CASE......................................... 4,9
*

REASONS FOR GRANTING THE WRIT.....................

10

OTHER................................................................................. 11
CONCLUSION.....................................
13

INDEX TO APPENDICES
APPENDIX A

14*15

APPENDIX B

16*20

APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

V

TABLE OF AUTHORITIES CITED
CASES
NUMBER
■ Tai Van Le, Mr. v. University of
Pennsylvania 321 F. 3d 403
*

PAGE
10

Sheridan v. El DuPont de Nemours & Co.,
100 F.3d 1061, 1078 (3d Cir.1996) (en banc).

8

Pagano v. Pennsylvania State Horse Racing
Comm'n, 50 Pa.Cmwlth. 499,503,413
A.2d 44, 45 (1980)); Shapp v. Butera

5

BELAIR v. DREW 770 So.2d 1164 (2000)

8, 10

Lochner v. New York, 198 U.S. 45 (1905)

7

Byars v. United States - 273 U.S. 28 (1927)

8

Saracusa v. State, 528 So.2d 520
(Fla. 4th DCA 1988).

8, 10

STATUTES AND RULES
Comm, of Pa Govern. Office Code of
Conduct, Exec. Ord 1980-18.

4,5

Pennsylvania Constitution 15 Special
Criminal Tribunals Prohibited

8

PA Title 13 Offer And Acceptance

7

As provided in 42 U.S.C. § 1981a(b)(l),

3

28 U. S. C. § 1254(1).

2

OTHER
Office of Administration EEO
Internal Investigation Retaliation
and Harassment Substantiated 5/11/2021

9

1

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue
to review the judgment below.
OPINIONS BELOW
[ X ] For cases from federal courts*
The opinion of the United States Court of Appeals 3rd
Circuit appears at Appendix...... A...... to the petition and
is

[ X ] Reported at
20*2783;

Court of Appeals 3rd Circuit Docket #•

The opinion of the United States district court appears at
Appendix...... B.......... to the petition and is
[ X ] reported at United States District Court Eastern
District of Pennsylvania (Philadelphia)
CIVIL DOCKET FOR CASE #: 2:i9-cv-04983*PBT

2

JURISDICTION

For cases from federal courts'
»■

The date on which the United States Court of Appeals
decided my case was..........1/21/21

[ X ] A timely petition for rehearing was denied by the
United States Court of Appeals on the following date:
3/10/21, and a copy of the order denying rehearing appears
at Appendix...... A........

The jurisdiction of this Court is invoked under 28 U. S. C. §
1254(1).

3

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
As provided in 42 U.S.C. § 1981a(b)(l), “[a] complaining
party may recover punitive damages .
Due process of law

4
STATEMENT OF THE CASE
I was sued by the Governor of Pennsylvania. As a state
employee, I am under the governor's jurisdiction. The action
was done through the PA Department of Transportation and
it's agents. It started with the human resources department.
And the action to punish me was defined in writing and then
forwarded to several other employees whom are supervisors
and managers. This libel act started the execution of a
nonprocedural action. I was suspended for three days
without pay. The VII Amendment reads matters over twenty
dollars can get a jury trial. According to the rules of the
common law. And a major work rule violation was entered
on my permanent personnel file. Of an alleged violation of
the Governors Code of Conduct. The alleged violation was
driving a state car with an expired license. A major work rule
violation. I was pulled over by the Harrisburg Police Dept.
In my personal vehicle after work hours. Work policy states
that if you have any interaction with law enforcement that
results in an arrest. You are to inform your supervisor. And
I did. And an internal investigation was done. After the
investigation is completed. And the employee is not deemed
dangerous. The employee is to work until the person goes to
court, or suspended until the person goes to court, and the
allegations are addressed. If you are not suspended until the
outcome of a hearing in a court of law. And allowed to work
until a trial. And then found guilty. The Department may
take action appropriate to any guilty findings. Department
actions are done on a case by case basis. Department actions
may be to move an employee to a different location or job
duty. Or suspend the employee, or terminate the employee.
If found to have violated a major or minor work rule,
penalties may be assessed accordingly.
The governors code reads if the court dismisses the alleged
behavior. And the employee was punished with a suspension
until trial. The violations shall be removed from the
employees permanent personnel file, and the employee
reimbursed money that was taken as a result of any
suspension. In my case, I was not charged with an expired
license, or tried in court for having an expired license.

5
But, I was charged by the HR Department for that infraction.
As a criminal. And money taken or fined by the Department
and not allowed due process.
*581 The Governor's Code of Conduct, 4 Pa.Code §§ 7.1717.179, is not a statute. Instead, it was promulgated through
Executive Order 1980-18 and has been codified in the
Pennsylvania Code. Only executive orders that have been
authorized by the Constitution or promulgated pursuant to
statutory authority have the force of law which could
establish a personal or property right in continued
employment. Pagano v. Pennsylvania State Horse Racing
Commission, 50 Pa. Commw. 499, 502, 413 A.2d 44, 45
(1980), affirmed, 499 Pa. 214, 452 A.2d 1015 (1982); Shapp
v. Butera, 22 Pa. Commw. 229, 234-35, 348 A.2d 910, 913-14
(1975). While the Governor may issue executive orders
absent such authority, these executive orders will not be
enforced by the courts. Pagano, supra at 502, 413 A.2d at 45.
I was suspended for three days without pay. Not until my
trial date. This is an arbitrary action. And this penalty is
outside the options given by the governor’s code of conduct.
The Department did not follow the codes instructions by
waiting for a trial. Or suspension until a trial’s results. Ever
since that day. I am being retaliated against, harassed, and
suffering discrimination. By the Human Resources
Department, supervisors, managers, and other employee
whom are white. Other reasons I believe is because I fight
the best I can for what I believe to be my rights. And these
people know it. Prior to this incident I was a Engineering
Tech. Paygrade 4. As a Tech I was in training to be a
Construction Inspector pay grade 5. I passed my year long
training and probation and was promoted to Inspector. I was
later asked to come in to HR and pick a new job because its
slow construction during the winter season. So, I picked
Utility Relocation Tech. Also a pay grade 5.1 chose to stay at
that position and not return to Inspector after the winter
season.

6
With the understanding as written. By the PA Civil Service
Commission. If the Department Initiates a Transfer
promotion rights will not be held against me. Before I came
to PennDOT I went to college to learn drafting. I received a
degree. A Highway Draftsman Designer position came
available paygrade 6. So, I applied for the position and was
hired. There was a conflict with the Civil Service Rules that
prohibited me from getting a promotion from Utility Tech,
paygrade 5 to Highway Drafter Designer paygrade 6. With
different job class titles. So the position was down graded in
pay to a paygrade 5 Highway Drafter. I was given a verbal
understanding after my probation. The job would and could
be upgraded back to a paygrade 6. And this would make me
paid the same as white employees have been before me.
From my knowledge there was one black female who had the
position and was also a paygrade 6.
During my probation I was pulled over after work in my
personal vehicle. I was told I will not get a promotion now by
my supervisor and manager. And from that day the
institutional discrimination has never seemed to stop. I have
been denied job interviews where I clearly qualify. If a job
reads next lower job title held. I never qualify. Example I
was a Construction Inspector. Previous Job Title Held you
qualify for an interview. It is always no not you. You don’t
qualify. I always ask why? Sometimes I get an answer.
Sometimes I don’t. You were not an inspector long enough
sometimes is the reason. This is contrary to the rule of
previous job title held. Which implies I know how to do the
job. Or have the minimum required skills to perform the job.
With training if needed. And promotion has been now held
against me for over twelve years. I finally get a chance to at
least be heard or considered as a candidate to be seen before
this honorable court. For every job with this criteria that I
meet I am systematically disqualified. I am now a Highway
Drafter with Civil Service status with PennDOT for twelve
years. There was a Designer position available paygrade 7.
A two paygrade increase, within the same job class.

7
Not an issue from the PA Civil Service for rejection for
promotion. The posting read if you were a Highway Drafter.
You qualify under previous job titles held for an interview.
I’m told no not you. I ask why? I am told you were not a
drafter long enough. Apparently twelve years isn’t long
enough when all I trying to do, is at least get an interview.
Under next lower job title held. I believe I am being
retaliated against for something that didn’t happen. That
being a permanent major work rule violation on my record.
By the time you try to appeal the job is always filled and my
efforts are futile.
The Department denied me due process. And keeps causing
irreparable harm. And the Department refuses to remove the
infraction from my record or pay back the money from the
suspension as the code directs. There are contracts that I
signed. One with the union, one with the PA Civil Service,
one with PennDOT, one with the Governor. I agreed to be
governed within strict parameters. I have the right to
contract my labor it’s my property.
See Lochner v. New York, 198 U.S. 45 (1905) - right of
freedom of contract under the Fourteenth Amendment’s
guarantee of liberty. I have the right to sell my labor as I see
fit. I am a state worker. A state citizen under the fifth
amendment and deserve equal protection of the law. Not
discriminated against on an arbitrary and capricious manor.
Or how HR and managers and supervisors of the
Department see fit. I have been threatened with violence. I
hear chatter around my desk “we chase down coons and hit
them upside the heads with baseball bats.” Talk by different
employees “someone is going to get punched in the face after
work.” I have been poked in the chest with fingers. I have
had my eyes water from hurt, humiliation, anger, and
sorrow. I have been called boy. I am a 54 year old man right
now tearing writing these atrocities. I do my best to keep
composure. I’m told by lawyers they will not take my case
because I haven’t been fired. I have been denied equal
protection of the law. Due process, and the right to face my
accusers. Rights afforded all other state employees to
contract under specific guidelines. In Pennsylvania under
Title 13 Offer and acceptance. And extrinsic evidence of
singed agreements.

8

I am the beneficiary of these contracts. Not to exclude the
Pennsylvania Constitution where I should be free of Special
Criminal Tribunals. The Governors code subjects me to that
making the code unconstitutional. I am the clearly intended
expressly designated beneficiary of the constitutions. And
the constitutions should be liberally interpreted in my
favor... The citizen 16AM Juris. 2nd Ed. Constitutional Law
Section 97. And the courts are to safeguard liberty and
security of both person and property. Note- 31 Bryers v US
273 us 28. And constitutional provision that confers a benefit
should be construed in favor of the clearly intended
beneficiary note 32 When an agency doesn’t follow its own
rules it can be questioned in a court of law. These rules are
applied in an arbitrary and capricious manor. I signed a
contract and was denied its provisions, and correct
administration and suffered infringement. The governors
code of conduct was used as a special criminal tribunal.
Against me a state worker. As a Pennsylvania citizen, under
the Pennsylvania Constitution Sect. 15 Special Criminal
Tribunals are Prohibited.
The 1967 Civil Rights Act under Title VII reads elected
officials are not employees under 2000e definition (f). The
District court has over ruled Congress and said by its ruling
the Governor and his appointee the Secretary of
Transportation are employees and can not be sued under
title VII discrimination and ADEA claims.
As part of the appeal, we affirmed the dismissal of Sheridan's
supervisor at DuPont because “Congress did not intend to
hold individual employees liable under Title VII.” Id. at
1078.
United States Court of Appeals, Third Circuit. SHERIDAN
v. NEMOURS AND COMPANY No. 94-7509. Decided:
January 31, 1996 -Barbara Sheridan filed this action against
her former employer, E.I. duPont de Nemours & Co., Inc.
(“duPont”), and a duPont supervisory employee, Jacques
Amblard, under Title VII of the Civil Rights Act of 1964, 42
U.S.C. § 2000e et seq. During trial, the court dismissed the
claims against Amblard on the ground that an employee
cannot be sued under Title VII. The jury subsequently
returned a verdict in favor of Sheridan and against duPont
on her constructive discharge claim, but the jury found for
duPont on Sheridan's remaining claims. The district court
then granted duPont's motion for judgment as a matter of
law (and in the alternative for a new trial) on the
constructive discharge claim.

9
Also
The PA Secretary of Transportation has made a gender
neutral policy. And said the word man is outdated. And we
are no longer allowed to use the words, man, men, woman,
women. Or the word man in inanimate objects. Such as the
word manhole. A hole in the street that may allow a person
access to underground utilities. The spirit of the policy is an
attack on all things man. A man hole is not a biological entity
and reveals the policy’s intent. Not to include everyone but
to exclude every man and woman. I claim this is a prior right
given. And my freedom of religion. The U.S. Declaration of
Independence reads that all men are created equal. And that
they are endowed by their Creator with certain unalienable
Rights, that among these are Life, Liberty and the pursuit of
Happiness" And title VII reads there are such things as men,
and wombed men, or women. This policy makes everyone a
thing. And without the words all men, and the common law.
It has been said the constitutions could not be understood.
16 AM Juris. 2nd Ed. Const. Law Section 114. Common Law.
And I claim this is sexual harassment. It is a right and a
privilege. And that the gender*neutral policy is
unconstitutional, overreaching and is trespass. And
infringement of equal protection of the law. And my freedom
of religion. All Men Are Created Equal Galatians 3:28. I
believe that God created man, and woman. The common law
also sees the right of a jury trial.

10
REASONS FOR GRANTING THE PETITION
When a person’s constitutional rights are infringed upon, the
encroachment has already happened. And you can’t go back and fix
it because it has already occurred. And this causes irreparable harm.
And in my case this has happened because I was denied due process.
And this is ongoing and continues to happen. Because I have a major
work rule violation in my permanent personnel file. With the threat
of termination. So it is ongoing. The only way for this ongoing
encroachment to stop is to grant this writ. And rule it should be
removed from my permanent record. When due process, and
ongoing infringement is happening during trial. It is grounds for
issuing a writ of Certiorari. The constitutional question was asked, is
the governor’s code of conduct constitutional as administered in my
case? An Executive order that allows an Agency to ignore due
process, through an executive order. And any contract in place. The
union contract and civil service, contract that I am a part of. That
infringes upon due process, perpetually. There is no remedy...
Clear Channel Communications, Inc. v. Murray, 636 So.2d 818 (Fla.
1st DCA 1994), and Saracusa v. State, 528 So.2d 520 (Fla. 4th DCA
1988). In each of those cases it had also been determined that no
adequate remedy would exist upon final appeal for an alleged
continuing violation of constitutional rights during the trial
proceedings.
BELAIR v. DREW 770 So.2d 1164 (2000) The district court
further reasoned that "[cjourts are not wont to examine the
constitutionality of a statute and especially reluctant to declare one
unconstitutional if not faced with the duty unavoidably." Id. In so
concluding, the district court certified conflict with Williams, which
held that certiorari review should be granted where a party's
constitutional rights may be abridged by the continuance of the
proceedings below and, therefore, such abridgement could not be
remedied on final appeal. See 719 So.2d at 1238-39.
There is a split between what congress defines as an employee, and
what the Eastern District Court of Pennsylvania has construed case
law to be an employee. Within regards to The 1964 Civil Right Act.
Title VII 2000e definition (f)elected officials are not employees.

11
OTHER
Melvin Walker May 11, 2021
2024 Chestnut Street
Harrisburg, PA 17104
Dear Melvin Walker,
This letter is in reference to the Equal Employment
Opportunity
Discrimination
Complaint
(Docket
#2019200647) you hied with the Office of Administration,
Bureau of EEO Investigations. In complaint #2019200647
you allege that you have been discriminated against by
Th*** W*** and Jason Bewley based on race and retaliation
in the form of discipline and harassment.
Regarding allegations against Th*** W****. Based on the
actions that occurred and the evidence gathered by
testimony, the complaint of discrimination could not be
substantiated.
Regarding allegations against J*** B. Based on the actions
that occurred and the evidence gathered by testimony, the
Bureau has concluded the underlying claims have been
substantiated.
The case findings have been referred to the Agency for
appropriate action to be taken.
If you are not satisfied with the outcome of the investigation
you may file an appeal to the Office of Administration,
Bureau of Policy and Appeals within 20 calendar days of the
date of this letter. The appeal must be in writing and sent to
the following:
Office of Administration
Bureau of Equal Employment Opportunity Policy and
Appeals
222 Finance Building
613 North Street Harrisburg PA 17120
Phone: 717.783.1130
If you have any questions regarding this correspondence,
please contact Lauren Hoag at 717.705.3888 or my email at
lhoag@pa.gov

12
United States Court of Appeals,Third Circuit.
Tai Van LE, Mr. v. UNIVERSITY OF PENNSYLVANIA, A
Not-for-profit corporation and; Stanley Opella, an individual
(E.D. Civil No. 00-cv-0048l)
As provided in 42 U.S.C. § 1981a(b)(l), “[a] complaining
party may recover punitive damages . if the complaining
party demonstrates that the respondent engaged in a
discriminatory practice or discriminatory practices with
malice or with reckless indifference to the federally protected
rights of an aggrieved individual.”

13
CONCLUSION
Judiciary Committee S-H 216 (Mike Lee) cspan (non quote)
Antonin Scalia: The doctrine of unconstitutional delegation of
legislative authority which is a bad name for it because there is no
constitutional delegation of legislative authority. When you give rule
making to an agency how far can you go? Can congress just get
together and say, the president, can do anything he wants and then
adjourn? Of course not that has to be unconstitutional. Executive
Authority when you give pure delegation of legislative power you are
not authorizing an exec. To act like an executive but you are
delegating executive power to a group that has no executive
responsibility... Senator of course you have to make those
constitutional decisions you take the very same oath I take. The only
reason I can look at a federal statue and say I have to disregard this
because, it does not comport with the constitution, is because... I have
taken an oath to uphold the constitution. You take the same oath so
we give deference to legislation on the assumption that the members
of the senate and of the house have tried to be faithful to their oath...
We don’t strike down your laws... we ignore them it seems to be a
law but really isn’t, where your law doesn’t comport with the
constitution... the law not with standing.
The Pa Department of Transportation Employees have no oath of
office to guard my rights from encroachment nor infringement. And
proceed to violate with impunity. And regularity.
The petition for writ of certiorari should be granted.

Respectfully submitted,

Date-

